WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 21-5295

Anthony D. Jones

v.

Michelle Floyd, Warden

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
*Limited appearance for indicating we
will not respond unless ordered. No
service in lower court due to dismissal
□
✔ Please enter my appearance*as Counsel of Record for all respondents. prior to service.

Please check one of the following boxes:

□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am
m a member of the Bar of the Supreme Court of the United States (Please explain if
anged since your admission):
your name has changed
Signature
Date:

8/25/2021

(Type or print) Name

Firm

Fadwa A. Hammoud, Solicitor General
□ Mr.
□ Ms.
□ Mrs.
□ Miss
✔

Michigan Department of Attorney General

Address

Post Office Box 30212

City & State Lansing, Michigan
Phone

Zip

48909

(517) 335-7628

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

Anthony Dean Jones 193539
Cooper Street Correctional Facility, 3100 Cooper St. Jackson, MI 49201

CC:

